Medicare Hospital Prospective Payment System
   How DRG Rates Are Calculated and Updated




                                                    August 2001

                                               OEI-09-00-00200


                                      Office of Inspector General

                            Office of Evaluation and Inspections

                                                        Region IX

This white paper was prepared under the direction of Paul Gottlober, Regional Inspector
General. Principal OEI staff included:

San Francisco                                              Headquarters

Tim Brady, Project Leader                                  Tricia Davis, Program Specialist

Barbie Robinson, Lead Analyst


Technical assistance was provided by:

Centers for Medicare & Medicaid Services, Central Office
Stephen Phillips, Deputy Director, Division of Acute Care

Amy Gruber, Health Insurance Specialist, Division of Acute Care

                            INTRODUCTION

When Medicare was established in 1965, Congress adopted the private health insurance sector’s
“retrospective cost-based reimbursement” system to pay for hospital services. Under this
system, Medicare made interim payments to hospitals throughout the hospital’s fiscal year. At
the end of the fiscal year, the hospital filed a cost report and the interim payments were
reconciled with “allowable costs” which were defined in regulation and policy. Medicare’s
hospital costs under this payment system increased dramatically; between 1967 and 1983, costs
rose from $3 billion to $37 billion annually.1

In 1982, Congress mandated the creation of a prospective payment system (PPS) to control costs.
Congress looked at the success of State rate regulation systems in controlling costs and mandated
the implementation of a prospective payment system model that had been successful in several
States.2 This system is a per-case reimbursement mechanism under which inpatient admission
cases are divided into relatively homogeneous categories called diagnosis-related groups
(DRGs). In this DRG prospective payment system, Medicare pays hospitals a flat rate per case
for inpatient hospital care so that efficient hospitals are rewarded for their efficiency and
inefficient hospitals have an incentive to become more efficient.

Congress gave the Department of Health and Human Services (HHS) primary responsibility for
setting and updating hospital payment rates under PPS.3 Later, Congress created the Prospective
Payment Assessment Commission (ProPAC) to participate with HHS in setting and updating the
DRG rates.4 Since its implementation, the DRG-based prospective payment system and the
updating processes have experienced continual structural shifts and modifications. The
processes by which the DRG codes are updated raises considerable issues with significant
implications for the structure and funding of our national health care system.

The following White Paper explains the PPS system, examines the process by which DRG codes
are updated, and identifies the factors influencing the DRG prospective payment and
classifications systems:

       C      Part I provides a summary of the evolution of the system including a discussion
              on how and why the system was created.
       C      Part II provides an overview of the PPS including examples and illustrations.
       C      Part III explains the processes for updating DRG codes and weights.
       C      Part IV contains a discussion of current issues that merit further consideration.




                                        )))))))))))
                                               1
                                        PART I: The Evolution of DRGs

The Retrospective Payment System

From fiscal years 1967 to 1984, hospitals were paid on the basis of the actual cost for providing
services to Medicare beneficiaries.5 Under this system, each hospital submitted a report called a
“cost report” which itemized expenditures incurred in the hospital’s prior accounting period or
“fiscal year.” During this period, Federal policy-makers viewed the health care system as
wasteful, as the inflationary costs from this system were enormous. 6 The following table shows
the increase in total Medicare expenditures from 1967 to 1985:

                                 Medicare: Enrolled Population and Expenditures 1967 and 1985 7

                                    Year             Number of                                      Percent of
                                                     Enrollees                 Expenditures        Health Care
                                                                                                   Expenditures

                                   1967              19.5 million               $4.7 billion             9.2%

                                   1985              31.1 million              $72.3 billion             16.9%


Two factors were blamed for the rapid growth in expenditures:

   1.	 Payment methodologies that paid providers based on their charges for providing services
       and consequently created an incentive to provide more services;
   2. Increases in costly medical technology.8

The following table shows Medicare hospital payments from 1967 to 1983.9


                                                     M edicare Hospital Payments (1967 - 1983)
                                                                   (in Billions)
                                   40
                                                                                                   $37
                                   35
                                                                                             $29
             Hospital Payments




                                   30
                                   25
                                                                                       $20
                                   20
                                                                                $15
                                   15                                    $11
                                   10                    $6         $7
                                           $3   $4
                                    5
                                    0
                                        1967 1969 1971 1973	 1975 1977 1979 1981 1983
                                                                         Year




                                                                 )))))))))))
                                                                           2
From 1970 to 1980, Medicare hospital payments increased by 88 percent. After the
implementation of the PPS, the rate of growth for Medicare hospital payments steadily declined
until 1987. In 1987, the administrative payment system was changed. This resulted in an
increase in the payment rate. Also, in 1987, legislative changes increased the amount of
reimbursement to hospitals for medical education, capital costs, and disproportionate share
payments.10 From 1985 to 1990, the payment rate decreased by 52 percent, and from 1990 to
1995 the payment rate decreased by 37 percent.11

The Prospective Payment System

In response to payment growth, Congress adopted a prospective payment system to curtail the
amount of resources the Federal Government spent on medical care for the elderly and disabled.
The Social Security Amendments of 1983 mandated the PPS payment system for hospitals,
effective in October of Fiscal Year 1983.12

The system was intended to motivate hospitals to change the way they deliver services. With
DRGs, it did not matter what hospitals charged anymore -- Medicare capped their payments.

   Congress had four chief objectives in creating the PPS:

   1.	 To ensure fair compensation for services rendered and not compromise access to hospital
       services, particularly for the more seriously ill;
   2.	 To ensure that the process for updating payment rates would account for new medical
       technology, inflation, and other factors that affect the cost of providing care;
   3. To monitor the quality of hospital services for Medicare beneficiaries; and
   4.	 To provide a mechanism through which beneficiaries and hospitals could resolve
       problems with their treatment.13

Congress gave primary authority for implementing the system to the Centers for Medicare &
Medicaid Services (CMS), formerly known as the Health Care Financing Administration
(HCFA). It also assigned responsibilities to outside, independent organizations to ensure that the
medical profession, hospital industry, and Medicare beneficiaries had the opportunity to provide
input on the creation and implementation of the system.

The Role of the Prospective Payment Assessment Commission (ProPAC)

In 1986, Congress created the ProPAC to participate in setting and updating the DRG rates. 14
This congressional commission was given the responsibility to evaluate the performance of the
executive and legislative branch on the management of the PPS. The commission was
comprised of 17 experts in health care delivery, finance, and research who were appointed by the
Director of the congressional Office of Technology Assessment.

   The ProPAC had two statutory responsibilities:

   1. To recommend mechanisms for updating hospital payment rates to the Secretary; and


                                         )))))))))))
                                                3
   2.	 To recommend necessary changes in DRGs to the Secretary, including the advisability of
       establishing new DRGs, modifying existing ones, or changing the relative weights.15

To ensure that ProPAC had the requisite information to perform these responsibilities, Congress
mandated that ProPAC have access to all relevant information, data, and research. Congress also
mandated a formal schedule of public communications between ProPAC and the Department
with respect to the annual updating of hospital payment rates.16 As regulated by the Balanced
Budget Act of 1997, ProPAC and the Physician Payment Review Commission merged to
become the Medicare Payment Advisory Commission (MedPAC). The ProPAC’s statutory
duties are retained in MedPAC’s statutory mandates.17

The Role of Peer Review Organizations

Congress required HHS to contract with peer review organizations to monitor:

   1.    the validity of diagnostic information supplied by hospitals for payment purposes;
   2.    the completeness, adequacy, and quality of care provided to Medicare beneficiaries;
   3.    the appropriateness of admissions and discharges; and
   4.	   the appropriateness of care in “outlier” cases in which additional Medicare payments
         were made.18

The basic responsibility of peer review organizations is to ensure that Medicare hospital services
are appropriate, necessary, and provided in the most cost effective manner. The peer review
organizations have considerable power to force hospitals’ to comply with HHS admission and
quality standards. They may deny payment to hospitals where abusive practices are found and,
in some instances, report such practices to HHS for further enforcement action.




                                          )))))))))))
                                                 4
           PART II: Developing and Rating DRG Codes

A key part of PPS is the categorization of medical and surgical services into diagnosis-related
groups (DRGs). The DRGs “bundle” services (labor and non-labor resources) that are needed to
treat a patient with a particular disease. The DRG payment rates cover most routine operating
costs attributable to patient care, including routine nursing services, room and board, and
diagnostic and ancillary services.19 The CMS creates a rate of payment based on the “average”
cost to deliver care (bundled services) to a patient with a particular disease. The DRG rates do
not expressly include direct medical education costs, outpatient services, or services covered by
Medicare Part B.20 For fiscal year 2002, there are 499 DRGs with a prospective price based on
the average resources used in treating patients under the specific DRG. 21

DRG Classification System

The DRGs classify all human diseases according to the affected organ system, surgical
procedures performed on patients, morbidity, and sex of the patient.22 The classification also
accounts for up to eight diagnoses in addition to the primary diagnosis, and up to six procedures
performed during the stay.23 For example, a trauma patient with broken limbs and organ injuries
involving multiple body systems would receive a principal diagnosis for the most severe
condition. The physician also would record additional diagnosis and procedures used to treat
this patient.

   The Claims Process

   The classification process begins with the physician’s documentation of the patient’s
   principal diagnosis, secondary diagnosis and other factors affecting the patient’s care or
   treatment (referred to as complications and co-morbidities).24 This information is submitted
   to the hospital’s medical records department where a medical record coder assigns diagnostic
   and procedures codes from the International Classification of Diseases, Ninth Revision,
   Clinical Modification (ICD-9). The hospital then sends the data electronically to its fiscal
   intermediary on a claim form known as a UB-92.25 The fiscal intermediary is a private
   company that has contracted with Medicare to process bills and pay claims for Medicare Part
   A services.

   The fiscal intermediary inputs these data into its claims processing system, referred to as the
   Medicare Code Editor. The system is designed to screen all cases and sort out those cases
   that require further review before classification into a DRG. Following this screening
   process, the fiscal intermediary, using an automated algorithm called “Grouper,” groups all
   discharge cases into one of 25 Major Diagnostic Categories (MDCs) before assigning it to 1
   of the 499 DRGs.26 Most of the MDCs are based on the body system involved and disease
   types. For example, MDC 1 involves diseases and disorders of the nervous system and MDC
   2 involves diseases and disorders of the eye. A few MDCs involve more than one organ
   system. For example, MDC 22 is the classification for burns and involves more than one


                                         )))))))))))
                                                5
   organ system, such as the respiratory and circulatory systems. The fiscal intermediary
   electronically submits a data file (referred to as the Medicare Provider Analysis and Review
   file) to CMS containing all the charge data that has been assigned to each DRG. 27

DRG Weights

The CMS assigns a unique weight to each DRG. The weight reflects the average level of
resources for an average Medicare patient in the DRG, relative to the average level of resources
for all Medicare patients.28 The weights are intended to account for cost variations between
different types of treatments. More costly conditions are assigned higher DRG weights. For
example, the fiscal year 2001 DRG weights range from .5422 for a concussion (DRG 32) to
1.4966 for viral meningitis (DRG 21) to 19.0098 for a heart transplant (DRG 103).29

Calculating DRG Weights

The methodology for calculating the DRG weights has been refined over time, but the core
process remains the same. Patient charges are standardized to remove the effects of regional
area wage differences, indirect medical education costs, and additional payments to hospitals that
treat a large percentage of low income patients (referred to as “disproportionate share
payments”). Cost of living adjustments are removed for hospitals in Alaska and Hawaii. 30 The
average standardized charge for each DRG is calculated by summing the charges for all cases in
the DRG and dividing that amount by the number of cases classified in the DRG.31 Statistical
outliers – those cases outside three standard deviations of the average charge for each DRG, are
eliminated. The average charge for each DRG is re-computed and then divided by the national
average standardized charge per case to determine the weighting factor. 32

DRG Payment Factors

All services provided by the hospital, except physician services, must be furnished by the
hospital directly or through arrangements with another in order to receive payment under the
PPS.33 Each hospital knows its payment rate prior to the beginning of its fiscal year. To arrive
at a basic price for a given service for a particular patient, each Medicare patient discharged by a
PPS hospital is first assigned to a DRG that has a corresponding DRG weight. The DRG weight
is multiplied by the hospital’s payment rate per case. All hospitals are reimbursed on the basis of
one of two Federal rates--“large urban” or “other.” 34 These rates are adjusted to reflect
differences in prevailing wage rates.

The DRG payments are further adjusted to take into consideration four factors which are
considered to reflect more accurately the costs of services provided by hospitals:

   1. Application of a Wage Index

   Salaries generally represent the largest component of hospital costs. Prevailing salary levels

   vary substantially among different areas of the country. Use of a single national or regional

   DRG payment for all hospitals, without any consideration of prevailing wages, would



                                          )))))))))))
                                                 6
   severely penalize hospitals located in high-wage areas and unfairly benefit hospitals located
   in low-wage areas. The CMS adjusts Federal DRG rates to reflect prevailing wages in the
   local area which is defined as either large urban, or other. The CMS publishes annually an
   index of prevailing relative wages for each area. As a result, DRG payments in high-wage
   areas are greater than DRG payments in low-wage areas. 35

   2. Indirect Medical Education Costs

   Teaching institutions are assumed to have higher costs than other institutions due to extra

   tests and procedures performed for teaching purposes and the treatment of more serious

   cases. Accordingly, the DRG payments for these hospitals are increased by a percentage

   based on the ratio of interns and residents to hospital beds.36


   3. Cost Outliers

   Medicare makes additional payments for cases with extremely high overall costs, commonly

   referred to as “cost outliers.” The CMS annually establishes the limits that must be met to

   qualify for “cost outlier” payments. If the cost of a particular case exceeds the limits, the

   hospital may qualify for a cost outlier payment. Cost outlier payments are not automatic; a

   hospital must make a specific request and must identify the actual costs associated with each

   outlier case.37


   4. Disproportionate Share Payments

   Disproportionate share hospitals are hospitals that treat a large percentage of low income

   patients, including Medicaid and Medicare beneficiaries. The CMS makes additional

   payments to hospitals that qualify to account for the cost of treating this population. 38


Other Special Payment Factors

In addition to the four factors discussed above, there are other factors considered in calculating
DRG payments depending on whether the hospital is considered a sole community hospital, a
Medicare dependent rural hospital, or a regional referral hospital. In each instance, there are
special payment rules. A hospital may be designated as a sole community hospital if, among
other things, it is (1) located more than 35 miles from another hospital, (2) the sole source of
inpatient hospital services in a geographic area, or (3) designated by the Secretary as a “critical
access hospital.”39 A Medicare dependent rural hospital is one that depends on Medicare for at
least 60 percent of its patient days or discharges. A regional referral hospital is one that serves
as a referral center for other hospitals in its area. 40 These hospitals are reimbursed according to
the payment rate for large urban areas.

Congress recognized that the DRG system does not adequately capture the costs for some
specialized hospitals. Accordingly, some hospitals are exempt from the system. These include
psychiatric, cancer, long-term care, children’s, and rehabilitation hospitals. However, PPS
systems are currently being developed for rehabilitation and long-term care hospitals. 41




                                           )))))))))))
                                                  7
Calculating DRG Payments

Calculating DRG payments involves a formula that accounts for the adjustments discussed in the
previous section. The DRG weight is multiplied by a “standardized amount,” a figure
representing the average price per case for all Medicare cases during the year. The standardized
amount is the sum of: (1) a labor component which represents labor cost variations among
different areas of the country and (2) a non-labor component which represents a geographic
calculation based on whether the hospital is located in a large urban, or other area. The labor
component is then adjusted by a wage index.42 If applicable, cost outlier, disproportionate share,
and indirect medical education payments are added to the payment.

The following case study illustrates how DRG payments are calculated:
                                     Payment Case Study

          Sara, a 72 year old widow, fell off of her front porch. An ambulance
          transported her to Generic Hospital, a Medicare-certified hospital in San
          Francisco. She is diagnosed with an open fracture of the left femur
          requiring surgical intervention. In addition, the physician determines from
          her medical history that she has non-insulin dependent diabetes with
          associated peripheral vascular disorders
                                                 .


              Step 1: Calculating the Standard Rate
              The PPS rate calculation begins with the “standardized amounts.” The
              standardized amounts are composed of a labor and a non-labor
              component. The large urban rates are used because San Francisco is in
              the large urban category.

                Generic Hospital’s Standard Federal Rate this year consists of the two
                categories of base operating costs, adjusted for large urban areas:

                       Labor related           $2,809.18
                       Non-labor related       $1,141.85




              Step 2: Adjusting for the Wage Index Factor
              The labor-related portion of the standardized amount is adjusted for area
              differences in wage levels by using the wage index factor. The wage
              index is calculated from a cost of living adjustment and earnings by
              occupational category. This year, the wage index for San Francisco is
              1.4193.




                                           )))))))))))
                                                 8
 The labor portion of the Standardized Federal Rate is multiplied by the
 wage index factor to adjust Generic Hospital’s DRG base rate:

 $2,809.18 x 1.4193 = $3987.07 (adjusted labor rate for San Francisco)
 $3,987.07 + $1,141.85= $5,128.92 — Generic Hospital’s Adjusted Base
 Rate


Step 3: Adjusting for the DRG Weight
The DRG weight reflects the level of treatment expected for an average
patient in this DRG. The relative weight for the hip and femur
procedure is 1.8128. This weight is multiplied by the labor and non-
labor components calculated in step 1.

  Based on the ICD-9 codes, this case was classified as surgical MDC 8,
  Hip and Femur Procedure, except that the femur is not a major joint,
  Sara is older than age 17, and she has comorbidities or complications
  (Diabetes).

              ($3,987.07 + $1,141.85) x (1.8128) =     $9,297.71


Step 4: Disproportionate Share Payment
Medicare-contracted hospitals that provide a disproportionate
percentage of care to Medicaid or Medicaid eligible patients who are
not eligible for Medicare Part A may qualify for PPS adjustments. The
CMS applies this payment adjustment to the Generic Hospital’s DRG
revenue for inpatient operating costs.

  Generic Hospital qualifies as a Disproportionate Share Hospital and
  receives additional funds. This rate is 0.1413. Generic’s base payment
  rate is multiplied by this rate.

                 ($9,297.71) x (1+ 0.1413) = $10,611.47


Step 5: Indirect Medical Education Payment
Teaching hospitals that have medical residents may receive an added
payment. This payment is based on the number of full-time equivalent
residents, number of hospital beds, and number of discharges. The base
payment rate is multiplied by the adjustment factor for Indirect Medical
Education plus the Disproportionate Share Hospital (DSH).




                           )))))))))))
                                   9
  The adjustment factor for Indirect Medical Education is 0.0744. This
  rate is added to the DSH factor plus 1 to give the Hospital an adjustment
  rate of:
           1 + 0.1413 + 0.0744 = 1.2157.
  The payment the hospital can expect to receive for this case is:
           $9,297.71 x 1.2157 = $11,303.23


Step 6: Outlier Payments
The CMS provides an additional payment for beneficiaries whose
lengths of stay or costs exceed the threshold rate.
  The hospital cost for Sara’s care was $9,983.64. She stayed in the
  hospital for 5 days. The hospital was paid $11,303.23 by Medicare. If
  the cost of her care had exceeded the payment rate by $14,050, Generic
  Hospital could request an outlier payment.




                            )))))))))))
                                   10
    PART III: Updating DRG Classifications and Weights
Updating the PPS is a complex and lengthy process. It is a two-part process in which CMS has
primary responsibility for creating or modifying new DRGs and making necessary changes to the
relative weights, and MedPAC makes recommendations to CMS and Congress on how to update
the PPS.

The Social Security Act requires CMS to adjust the DRG classifications and relative weights
annually.43 Throughout the calendar year, CMS receives comments from the public and other
interested parties. In December and January, CMS compiles a list of issues to be addressed
through the updating process. CMS awarded a contract to Minnesota Mining and Manufacturing
(3M) Corporation, a company specializing in health information systems development to
maintain and update the DRG classification.44 The 3M Corporation addresses those issues
related to updating the DRG classification.45 CMS internally handles issues related to updating
the DRG weights. In May, CMS publishes its proposed updates in the Federal Register for
public comment. It is required to respond to each comment received. In August, CMS publishes
its final updates, which are effective in October of that year. 46

The process involves: (1) updating and reclassifying existing DRG codes, as well as creating
new codes; (2) updating the DRG weights; and (3) adjusting the wage index. The updates are
performed to account for:

   1.      inflation, hospital productivity and new technology,
   2.      changes in resource consumption due to technology and other factors, and
   3.	     changes in treatment patterns, technology and other factors that may change the use
           of hospital resources.47

The CMS Process
CMS reclassifies the DRGs and recalibrates the DRG weights to decide what changes are
necessary to compensate adequately for costs under PPS. The recalibration and reclassification
processes are integrally related. The reclassification update occurs first, followed by
recalibration of the weights.

   Updating DRG Codes

   The process by which the DRG codes are updated is called reclassification. It involves not
   only an assessment of the appropriateness of the DRG assignment within MDCs, but it also
   entails reclassifying the codes to account for new medical technologies and treatment
   patterns.

   The 3M Corporation provides CMS with recommendations for modifications to the DRG
   system including changes to the DRGs based on new ICD-9 codes.48 Using a sample of
   Medicare cases from a 2-year old MedPAR file, 3M performs statistical analyses to


                                        )))))))))))
                                              11
determine whether potential DRG modifications are warranted. The analyses determine
whether the cases of patients classified within a DRG have a similar pattern of resource
intensity and whether they contain similar characteristics based on common organ systems
(commonly referred to as “clinical coherence”).49

Examples of DRG modifications may include adding new MDCs, creating new DRGs,
redesigning classes of DRGs, or splitting DRGs to increase classification specificity. When
such modifications are implemented, they are tracked for 2 years to determine whether they
are appropriate. In 1998, CMS implemented a final rule in which it reclassified the DRGs
for burn cases to account for the variation in resources associated with the different severity
levels of burn patients.50 This reclassification was done after a 2-year review of the cases
within the DRG. The review assessed whether or not changes in resource use were valid.

Updating DRG Weights

The process by which the DRG weights are updated is referred to as recalibration. Through
recalibration, CMS updates the DRG system to account for changes in medical practices,
technology, and the range of cases within the DRGs (commonly referred to as “case
complexity”). Recalibration ensures that the weights accurately reflect the value of resources
used for each patient classification. The Social Security Act requires CMS to recalibrate the
DRG weights in a manner that maintains “budget neutrality” of the total program. Budget
neutrality requires that the estimated payments for the hospital benefit are not greater or less
than 25 percent of the payment amounts that would have been payable for the same services
in Fiscal Year 1984.51

DRG recalibration follows the reclassification updates. The CMS recalibrates the DRGs
from bills received from all hospitals that are under PPS. The recalibration process begins
when all the cases in the Medicare Provider Analysis and Review file are regrouped using
the DRG reclassification updates. A national standardized average charge is created by
performing a statistical analysis to remove the differences in area wage levels, indirect
medical education and disproportionate share hospitals payments and the cost-of-living
adjustment factor for hospitals in Alaska and Hawaii. 52 An average standardized charge is
calculated by summing the standardized charges for all cases in the DRG and dividing that
amount by the number of cases classified in the DRG. Cases above or below the average
standardized charge by a specified amount (statistical outliers) are eliminated. After
eliminating the statistical outliers, the average charge for the DRG is then re-computed and
divided by the national average standardized charge to determine the relative weight for each
DRG.53

Updating the Wage Index

The CMS is required to make annual updates to the wage index.54 This process involves
adjustments to the standardized amounts in hospital wages in different geographic areas
throughout the country. The standardized amounts are adjusted by a factor that reflects the
relative hospital wage level in a given geographic area compared to the national average


                                      )))))))))))
                                             12
   hospital wage level.55 The CMS must base the updates on several factors, which include a
   survey of wages and wage-related costs of short-term, acute care hospitals. The survey
   measures the salaries, paid hours of employment by occupational category, home office
   costs and hours, and certain contract labor costs and hours. The update to the wage index
   excludes the wages and wage-related costs for skilled nursing facility and home health
   services as well as the wages for other provider areas which are not subject to PPS. 56

Medicare Payment Advisory Committee’s Process

MedPAC’s (formerly ProPAC) involvement in the updating process is mandated by statute.57
The Commission has 17 members (appointed by the Comptroller General of the General
Accounting Office) who bring a wide range of expertise in the financing and delivery of health
care services. The Commission is supported by a full-time executive director and a staff of
approximately 30 analysts. Analysts typically have backgrounds in economics, health policy,
public health or medicine.58 The Commission’s recommendation process begins in June when it
meets to set its policy agenda for the coming year. During the summer months, Commission
staff conduct research on the issues set forth in its policy agenda. Beginning in September, the
Commission begins a series of 2 day public meetings to discuss the results of its research and to
formulate recommendations to CMS and Congress.59

The Commission releases its recommendations in two reports, which are required by statute to be
issued in March and June of each year. MedPAC’s recommendations may involve specific
issues related to the DRG updating process or more global considerations related to PPS and
Medicare payment policy. The MedPAC does not embark upon a systematic review nor does it
use the CMS methodology to update DRG classification and weighting factors. Through its
reporting and recommendation processes, it conducts broader analysis related to Medicare
payment. Over the years, MedPAC has (1) looked at issues related to improving the quality of
care, (2) made recommendations for developing prospective payment systems for various
provider categories, and (3) suggested ways to improve payments for end-stage renal diseases
services. Recently, however, the MedPAC has focused on specific issues pertaining to the DRG
updating process.

   MedPAC’s June 2000 Recommendations for Updating PPS

   In its June 2000 report to Congress, MedPAC specifically outlined recommendations for
   updating and refining the DRG classification and weighting methodologies. MedPAC
   recommended updating the system by:

       1.	 changing the DRG definitions to account more completely for severity differences
           among patients,
       2. altering the methods currently used to calculate the DRG weights, and
       3. changing the method of financing extra payments for outlier cases.60

   The MedPAC recommended refinement of the DRG definitions and relative weights to
   improve payment accuracy. It recommended that CMS adopt the All Patient Refined


                                         )))))))))))
                                               13
Diagnosis Related Groups patient classification system. This system differs from the current
DRG system in how information about patients’ secondary diagnoses is reported on hospital
claims. It also recommended calculating the DRG weights using hospital-specific relative
values.

The MedPAC maintains that the use of refined DRGs and weights based on hospitals’
relative values would more accurately reflect the relative costliness of typical cases in each
DRG. It conducted an evaluation of its proposed changes and the current DRG classification
and weighting system.61

The CMS Response to MedPAC’s Recommendations

CMS responds to MedPAC’s recommendations in the same manner that it responds to the
general public’s comments — through the public comment process in the Federal Register.
CMS systematically responds to each MedPAC recommendation. Some of the
recommendations are implemented, others are not. Some of MedPAC’s recommendations
would require legislative changes which are beyond CMS’ control. In response to
MedPAC’s June 2000 recommendation that the Secretary should adopt the All Patients
Refined Diagnosis Related Groups, CMS agreed that this change would reduce discrepancies
between payments and costs, but declined to adopt such a change because it would not be
able to predict with accuracy how such a change may affect coding behavior. Furthermore,
CMS believes that such a change would require specific legislative authority. 62




                                     )))))))))))
                                            14
                    PART IV: Issues for Consideration

Previous Issues Considered by the Office of Inspector General

Over the years the Office of Inspector General has studied numerous issues related to the DRG-
PPS including reports on:

   C       Overpayments for patient transfers under the PPS system;

   C       Improper Medicare payments to hospitals for nonphysician outpatient services;

   C       Monitoring of DRG upcoding;

   C       Monitoring of hospital payments for specific DRGs; and

   C       The effects of the PPS on access to skilled nursing facilities.

Current Issues for Consideration

Factors such as technology development, access to and timeliness of information, and the coding
of the DRGs have an impact on the future of PPS. The following issues have been identified as
areas for further consideration:


   1.      Do annual updates adequately reflect changes in technology?

   2.	     Does CMS’ 2-year forecasts of the market basket of costs adequately adjust for
           inflation?

   3.	     Do current review processes adequately verify the validity of diagnostic information
           supplied by providers?

   4.      Are the non-MedPAR data sources adequate for updating the DRGs?

   5.	     Does the budget neutrality requirement constrain CMS’ ability to update the DRG
           classifications and weights?




                                         )))))))))))
                                                15
                                          Endnotes

1. Centers for Medicare & Medicaid Services, Medicare: Estimated Hospital Insurance
Disbursements Calendar Year 1966-2000, Center for Medicare & Medicaid Services, Office of
the Actuary (2000).

2. Thompson, D., Diers, D, Nursing Resources, in DRGs Their Design and Development 121 (R.
Fetter ed., 1991).

3. Social Security Act , 42 U.S.C.§1395ww(e)(5)(A) (Supp. 1985).

4. Pub. L. 105-33, Title IV §4022(c), 111 Stat. 355 §1395(b)(6) (1997).

5. Pub. L. No. 89-87, §102(a), 79 Stat. 286 (codified as amended at 42 U.S.C. §§1395(f)(b),
1395x(v) (1982 and Supp. 1985).

6. Knowles, J. ed., Doing Better and Feeling Worse: Health in the United States (1977).

7. Center for Medicare & Medicaid Services, Health Care Fin. Rev., 1-9 (1996).

8. Office of Technology and Assessment, Medical Technology Under Proposals to Increase
Competition in Health Care, 22-38 (1982). See also, Olson, M. ed. A Synthesis of the Empirical
Evidence, A New Approach to the Economics of Healthcare (1981).

9.United States Government Printing Office, Medicare and Health Care Chartbook (1997).

10.Correspondence Memo with Clare McFarland of the Centers for Medicare and Medicaid
Services, in Baltimore, MD (June 12, 2001).

11.United States Government Printing Office, Pre- 1975 to 1995 CPI From Historical Statistics
of the United States (1997).

12. Tax Equity and Fiscal Responsibility Act of 1982, Pub. L. No. 97-248 §101, 96 Stat. 33-36
(codified as amended at 42 U.S.C. §1395ww(a)-(c) (Supp. 1985)).

13. See generally H.R. REP. NO. 25, 98th Cong., 1st Sess. 132 (1983), S. REP. NO. 23 98th
Cong., 1st Sess. 111 (1983).

14. Social Security Amendments of 1983, Pub. L. No 98-21, §601(e), 97 Stat. 65 (codified as
amended at 42 U.S.C. §1395ww(e)(2) (Supp. 1985).

15. 42 U.S.C. §§1395ww(e)(2), (6)(A),6(B) (Supp. 1985).

16. Social Security Act, 42 U.S.C. §§1395ww(e)(2), (6)(A), (6)(B) Supp. (1985).

17. Pub.L. 105-33, Title IV §4022(c), III Stat. 355 §1395(b)(6) (1997).



                                        )))))))))))
                                               16
18. Peer Review Improvement Act of 1982, Pub. L. No. 97-248 §§141-150, 96 Stat. 381.

19. 42 CFR §412.20(a) (2000).

20. 42 CFR §§412.2(e), 412.115. (2000).

21. Medicare Program; Changes to the Hospital Inpatient Prospective Payment System and
Fiscal Year 2001 Rates, 65 Fed. Reg. 47025, 47154 (Aug. 1, 2000).

22. 42 C.F.R. §412.60(a)-(c) (2000).

23. See 65 Fed. Reg. 47025 (Aug. 1, 2000).

24. Id.

25. Telephone Interview with Amy Gruber, Health Insurance Specialist, Centers for Medicare &
Medicaid Services, in Baltimore, MD (Apr. 27, 2001).

26. 65 Fed. Reg. 47025, 47057 (Aug. 1, 2000).

27. Id.

28. 64 Fed. Reg. 41489, 41491 (Jul. 30, 1999).

29. Id.

30. 42 C.F.R. §412.62(d)(1)-(4)(g) (2000).

31. 64 Fed. Reg. 41489, 41498 (Jul. 30, 1999).

32. Id.

33. 42 C.F.R. §412.50(c) (2000).

34. 42 C.F.R. §412.62(f)(i)-(iii).

35. 42 C.F.R. §412.60.

36. 42 C.F.R. Parts 412, 413.

37. 42 C.F.R. §§412.84, 412.86.

38. 42 C.F.R. §412.

39. 42 C.F.R. §412.92-102.

40. Id.

41. See generally 42 C.F.R. §412.23.

                                       )))))))))))
                                                 17
42. 42 C.F.R. §§412, 413.

43. 42 C.F.R. §412.10(a).

44. See, Health Care Financing Administration Awards Contract to 3M for Maintenance and
Update of the Diagnosis Related Groups and Related Software Systems at,
http://www.3M.com/market/healthcare/his/us/news/news-archive/june_1999.html.

45. Telephone Interview with Amy Gruber, Program Analyst, Centers for Medicare & Medicaid
Services, in Baltimore, MD (Apr. 27, 2001).

46. Id.

47. 42 C.F.R. §412.60(e). (2000).

48. Telephone Interview with Amy Gruber, Program Analyst, Centers for Medicare & Medicaid
Services, in Baltimore, MD (Apr. 27, 2001).

49. 42 C.F.R. §412.10(b)(1) (2000).

50. 64 Fed. Reg. 41489, 41494 (Jul. 30, 1999).

51. 42 U.S.C. §1395ww (2000).

52. 42 C.F.R. §412.62(h)(i) (2000).

53. 64 Fed. Reg.41489, 41499 (Jul. 30, 1999).

54. 42 U.S.C. §1886(d)(3)(E) (1993).

55. 65 Fed. Reg. 47055, 47070 (Aug. 1, 2000).

56. Id.

57. Social Security Act, 42 U.S.C. §1805(a) (1997).

58. Pub. L. 105-33, Title IV §4022(c), 111 Stat. 355 §1395(b)(6) (1997).

59. Medicare Payment Advisory Commission, Report to Congress: Improving Medicare’s
Payment for Inpatient Care and for Teaching Hospitals, at 54 (June 2000).

60. Id.

61. Id.

62. Medicare Program; Changes to the Hospital Inpatient Prospective Payment System and
Fiscal Year 2001 Rates, 65 Fed. Reg. 47025, 47103 (Aug. 1, 2000).



                                        )))))))))))
                                                 18
